CERTIFICATE OF SERVICE
No. TBD
James Kerr Schlosser

Petitioners)
v.
United States of America
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JAMES
Kerr Schlosser Petition for Writ of Certiorari, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj .gov
Counsel for United States ofAmerica

Lucas'DeDeus

October 18, 2019
SCP Tracking: Schlosser-1828 Krystle Drive-Cover White

